21-________
In the
SUPREME COURT OF THE UNITED STATES
October Term 2020
______________________________________________
LAWRENCE JOEY SMITH,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeal
for the Eleventh Circuit
APPENDIX TO PETITION FOR WRIT OF
CERTIORARI
ROBERT R. BERRY
LAW OFFICE OF ROBERT R. BERRY
1521 Highland Drive
Tallahassee, FL 32317
(850) 597-8015
robert@attorneyrobertberry.com
Attorney for Petitioner

TABLE OF CONTENTS
page
APPENDIX 1: 11th United States
Circuit Court of Appeal order
denying certificate of appealability

1

APPENDIX 2: 11th United States
Circuit Court of Appeal order
denying motion for reconsideration.

4

Respectfully Submitted

5

APPENDIX 1: 11th United States Circuit Court of
Appeal order denying certificate of appealability
_____________________
Lawrence Joey SMITH, Petitioner-Appellant,
v.
SECRETARY, FLORIDA DEPARTMENT OF
CORRECTIONS, Attorney General, State of Florida,
Respondents-Appellees.
No. 20-11369-A
Filed: 11/20/2020
Appeal from the United States District Court
for the Middle District of Florida
Attorneys and Law Firms
Robert Berry, Law Office of Robert
Tallahassee, FL, for Petitioner-Appellant.

Berry,

Lawrence Joey Smith, Mayo, FL, Pro Se.
Tonja Vickers Rook, Ashley Moody, Attorney
General's Office, Tampa, FL, for RespondentsAppellees.
Opinion
Adalberto Jordan, UNITED STATES CIRCUIT
JUDGE
ORDER:
Lawrence Smith is a Florida prisoner serving
life imprisonment after a jury convicted him for firstdegree murder and attempted first-degree murder.
1

Through counsel, he seeks a certificate of
appealability (“COA”) in order to appeal the denial of
his 28 U.S.C. § 2254 petition, in which he alleged that
trial counsel was ineffective for failing to object to the
state prosecutor's improper statements during closing
argument regarding the jury's consideration of the
evidence, or the lack thereof, in reaching its verdict.1
He also seeks leave to proceed in forma pauperis
(“IFP”).
In order to obtain a COA, a petitioner must
make “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2); Slack v.
McDaniel, 529 U.S. 473, 484 (2000) (stating that,
where a district court has rejected a constitutional
claim on the merits, the petitioner must demonstrate
that “reasonable jurists would find the district court's
assessment of the constitutional claims debatable or
wrong,” or that the issues “deserve encouragement to
proceed further”).
Here, reasonable jurists would not debate the
denial of Smith's claim. Trial counsel had no basis to
object to the prosecutor's statement that the jury
should not speculate but instead base its verdict on
the evidence, particularly when it was in response to
trial counsel's prior statement that Smith's gunshot
Although Smith's § 2254 petition raised additional
claims, his counseled motion for a COA only addresses his one
claim of ineffective assistance of counsel for failing to object to
the prosecutor's statements during closing argument. Because
this Court “will not entertain the possibility of granting a [COA]”
on an issue as to which the petitioner “does not provide facts,
legal arguments, or citations of authority that explain why he is
entitled to a certificate,” Smith has abandoned his other claims.
Jones v. Sec'y, Dep't of Corrs., 607 F.3d 1346, 1349-50, 1353-54
(11th Cir. 2010).
1

2

residue test must have been negative because the
state never presented the results at trial. In any
event, the trial court properly instructed the jury that
its verdict must be based solely on the evidence, the
conflict in evidence, or the lack of evidence, which the
jury is presumed to have followed. See United States
v. Wilson, 149 F.3d 1298, 1302 (11th Cir. 1998)
(stating that a jury is presumed to have followed a
court's jury instructions).
Accordingly, Smith's motion for a COA is
DENIED, and his motion for leave to proceed IFP is
DENIED AS MOOT.
All Citations
Not Reported in Fed. Rptr., 2020 WL 9258458

3

APPENDIX 2: 11th United States Circuit Court of
Appeal order denying motion for reconsideration.
____________________

Lawrence Joey SMITH, Petitioner-Appellant,
v.
SECRETARY, FLORIDA DEPARTMENT OF
CORRECTIONS, Attorney General, State of Florida,
Respondents-Appellees.
No. 20-11369-A
Filed: 11/20/2020
Appeal from the United States District Court
for the Middle District of Florida
Before: Jordan and Newsome, Circuit Judges.
BY THE COURT:
Lawrence Smith, through counsel, has
filed a motion for reconsideration, pursuant to 11th
Cir. R. 27-2 and 22-1(c), of this Court’s November 20,
2020 order deny a certificate of appeal and leave to
proceed on appeal in forma pauperis. Upon review,
motion for reconsideration is DENIED because he has
offered no new evidence arguments of merit to
warrant relief.
January 7, 2021.

4

